September 30, 2010

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT:      Audit Report – Certification Process for Electronic Payments
              (Report Number CA-AR-10-006)

This report presents the results of our self-initiated audit of the U.S. Postal Service’s
certification process for electronic payments (Project Number 09YG050CA000). Our
objective was to assess whether Postal Service officials properly certified electronic
payments to ensure the agency receives goods and services prior to paying the invoice.
See Appendix A for additional information about this audit.

The contracting officer (CO) is ultimately responsible for assuring the Postal Service has
received goods and services and been invoiced in the correct amount before paying an
invoice. The standard practice that ensures this throughout the federal government is
the certification of vendor invoices prior to payment. Postal Service policy allows the CO
to delegate this role to a contracting officer’s representative (COR). However, the CO
maintains responsibility for ensuring that this critical review is properly performed before
payment. The Postal Service made approximately $5.6 billion in electronic payments
from April 1, 2008, to March 31, 2010, for various transportation, utility, and
telecommunications contracts. Specifically, these payments include $4.8 billion in
annual rate Highway Contract Route (HCR) services managed by the Surface
Transportation Category Management Center (CMC), approximately $666 million in
utility services, and approximately $158 million in telecommunication services. Two
contractors, Energy United and ProfitLine, processed and paid these utility and
telecommunication bills on behalf of the Postal Service.

Conclusion

Postal Service officials must improve oversight of electronic payments to ensure that
payments to contractors are properly certified and that the agency has received goods
and services before payment. The Postal Service did not certify approximately $5.6
billion in electronic payments. Certification prior to payment is necessary to ensure that
the Postal Service has been appropriately billed and that goods and services have been
received.
Certification Process for Electronic Payments                            CA-AR-10-006



Certification of HCR Payments and Utility and Telecommunication Invoices

Postal Service officials did not certify approximately $5.6 billion of payments as follows:

       HCR payments of $4.8 billion.

       Utility payments of $666 million for services at approximately 2,400 Postal
        Service facilities.

       Telecommunication payments of $158 million, including $6 million in fees paid to
        a contractor to process those invoices.

HCR suppliers were not required to submit invoices for their services, which the Postal
Service automatically paid with no assurance that trips were completed and payments
were correct. In addition, Postal Service COs and CORs did not certify utility and
telecommunication invoices prior to payment. Although the Postal Service designated
individuals to receive invoices for review, positive certification of their accuracy was not
required before payment.

We classified these payments as unsupported questioned costs due to significant
internal controls not properly applied to the certification of automated payments for
highway contract services and payment of utility and telecommunication invoices. These
costs are questioned because they are not supported by adequate documentation or
because employees did not follow required procedures. The use of the category
“unsupported questioned costs” does not necessarily indicate actual loss incurred by
the Postal Service. See Appendix B for our detailed analysis of this topic.

Management Oversight of HCR Payments

Surface Transportation CMC management could not identify the COs responsible for
$1.2 billion in HCR payments in the Postal Service’s Accounts Payable Excellence
(APEX) database. In addition, the Postal Service paid approximately 1,900 HCR
payments (valued at about $7.6 million) 31 days or more after the HCR contract end
date. Payments fell between 31 and 2,150 days after contract end date. However, 92
percent of those payments occurred within 1 year of the contract end date. These
contracts are paid monthly, with the payment occurring at the beginning of the service
month. Payments made more than 30 days after contract end date are questionable, as
there would be no basis for the payment under normal circumstances.

Management provided a description of the payments after we made several inquiries
during our audit and at our exit conference held August 30, 2010. Management’s
description of the payments was not sufficient to support such payments after the
contract end date, as the payments were made well after services halted and further
payment would not be authorized. In addition, management does not have adequate
controls in place to identify the COs responsible for overseeing HCR payments and to




                                                2
Certification Process for Electronic Payments                                                  CA-AR-10-006



ensure that payments are not made after contract expiration. As a result, we are
reporting $7,586,0851 as recoverable questioned costs due to improper HCR payments
made to HCR contractors 31 or more days after contract end dates. See Appendix B for
our detailed analysis of this topic.

Management Oversight of Utility Invoices

Designated Postal Service officials were unaware of their roles and responsibilities for
receiving and reviewing utility invoices from Energy United, the contractor. This
occurred because no one properly informed the officials of their responsibilities or
trained them in how to perform them. In addition, contact information in the Utility
Management System (UMS)2 was inaccurate. Postal Service officials did not ensure
information in the system was updated consistently and timely. Because designated
officials were not properly trained and the CO or COR did not ensure that the contractor
had accurate contact information, the CO or COR could not ensure that utility invoices
forwarded were received and reviewed for accuracy prior to payment.

During April 2009 through January 2010, Postal Service officials erroneously paid utility
invoices by at least $233,000 dollars, including a $43,000 payment applied to the wrong
Postal Service utility account. During the same time period, there was an additional
$148,000 in refunds to the Postal Service that the CO could not explain. These
overpayments occurred because officials at Postal Service facilities made payments
directly to utility companies, unaware that the contractor paid their invoices. The
contractor received the refunds from the utilities for the Postal Service and forwarded
the refunds to the appropriate Postal Service program office. However, the CO did not
adequately analyze and reconcile the refunds received to determine their root cause or
whether additional overpayments may have occurred. The reconciliation process could
help the Postal Service identify facilities that receive refunds due to rate changes,
deposits, and overpayments; and trends in refunds.

We recommend the vice president, Supply Management:

1. Develop an oversight mechanism to monitor and ensure contracting officers’ and/or
   designated officials’ receipt and certification of invoices.

2. Reiterate to contracting officers and/or their designees their roles and
   responsibilities; and the importance of following Postal Service criteria, policies, and
   procedures for certifying invoices prior to payment to ensure that invoices are correct
   and goods and services were received.


1
  See Appendix C for calculation of unsupported questioned costs.
2
  The UMS system provides detailed facility consumption, cost profiles, bill payments, auditing information rate
optimization for selected Postal Service facilities. The system also provides Postal Service officials with contact
information (for example, name, email, phone, etc) for submitting utility invoices for review and creating easy to use
reports available for management.




                                                           3
Certification Process for Electronic Payments                             CA-AR-10-006



We recommend the vice president, Supply Management, direct the manager,
Transportation Portfolio, to:

3. Develop and implement written procedures for receiving invoices for annual highway
   contract route services and verifying that services were rendered prior to payment.

4. Identify contracting officers and notify them to oversee and administer all highway
   contract route payments in the Postal Service Accounts Payable Excellence System.

5. Review the $7.6 million in payments made more than 30 days after contract end
   dates, ensure that payments were properly supported, and collect overpayments.

We recommend the vice president, Supply Management; direct the manager, Facilities
Portfolio, to:

6. Provide detailed, consistent training for all designated officials on their roles and
   responsibilities and usage of the Utility Management System.

7. Regularly reconcile payments made for utility services to identify and collect
   overpayments.

8. Ensure that the designated official contact information in the Utility Management
   System is accurate and that the system requires positive certification by the
   designated official before invoice payment.

Management’s Comments

Management generally agreed with recommendations 2, 5, 6, 7, and 8. Management’s
response pointed out some of the efficiencies gained through electronic invoices and
discussed some of the flexibilities they believe are allowable in the invoice certification
process, including the practice of designating an office to certify invoices.

Management’s response for recommendation 1 and 4 did not note agreement or
disagreement. With regard to recommendation 1, management stated that within their
policies, oversight mechanisms exist to ensure that payment processes are planned
and adequate controls are established for those payments. They further stated they
would conduct a compliance review of invoice receipt and certification in FY 2011,
based on a sample of contracts from each portfolio that require invoice submission and
certification. Regarding recommendation 4, management stated there was some
confusion with what was requested, but they were in the process of re-reviewing the
U.S. Postal Service Office of Inspector General’s (OIG) request for determining and
matching the responsible CO to the $1.2 billion in HCR payments made in the Postal
Service’s APEX database. They agreed to provide a list of all the COs and routes for
which they are responsible by October 30, 2010.




                                                4
Certification Process for Electronic Payments                            CA-AR-10-006



Management disagreed with recommendation 3, stating the Postal Service has a
streamlined payment process in place for HCR contracts and a system to automatically
pay HCR suppliers at contracted rates. They also stated that the OIG’s recommendation
as they understood it would require their estimated 15,000 HCR suppliers to submit an
itemized invoice requesting payment for each trip operated on a monthly basis. They felt
this would require the Postal Service to re-verify and approve for payment
approximately 180,000 invoices and 23,000,000 trips per year; and that the magnitude
of this invoicing effort would require an unsubstantiated amount of added work and
potential cost for the Postal Service and its’ suppliers with little added benefit.
Management also stated that they believed they had adequate compensating controls,
most notably in their ability to take action on exceptions retroactively. However,
management did say that they would work with Network Operations to strengthen the
control process.

Management also disagreed with the monetary impact identified in the audit, stating that
the majority of the monetary impact associated with each program is based upon the
premise that an invoice must be submitted by a supplier and that a person who is a CO
or designated CO’s representative is the only person who has the authority to certify an
invoice. They further stated they have a long established policy that allows contractors
to be paid automatically at the conclusion of each accounting period without submitting
an invoice. They stated that their policies also provide the COs with the flexibility to
negotiate alternate payment procedures to satisfy unique business requirements, such
as those that exist with utilities and telecommunications.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to recommendations 2, 5, 6,
7, and 8 and management’s corrective actions should resolve the issues identified in the
report. Although management did not state agreement with recommendation 1, their
corrective actions planned should resolve the issues identified.

We have concerns regarding some of management’s statements in their response.
Specifically, management points out that Postal Service purchasing policies provide
significant flexibilities that COs can exercise. While these policies allow a great deal of
flexibility in their implementation, exercising them to the maximum is not always in the
best interest of the Postal Service. Ensuring that goods and services have been
received and appropriately billed before payment is a primary function of contract
administration and, ultimately, the COs responsibility. The Postal Service has a general
policy of appointing CORs through a letter from the CO outlining the specific
responsibilities being delegated and instructions for completing them. The COR is also
generally required to take training on those duties. This mirrors a fundamental contract
administration control applied throughout the federal government. To replace this
practice with general delegations on a broad scale diminishes the control significantly
and provides no assurance that staff members who certify invoices have had sufficient
training or any knowledge of the terms of the contract being administered.




                                                5
Certification Process for Electronic Payments                          CA-AR-10-006




In implementing recommendations 1 and 2, it is important that the Postal Service
address the importance of receiving and certifying invoices before making contractual
payments. For recommendation 4, the Postal Service needs to both identify the COs
responsible for oversight of the $1.2 billion in HCR payments identified and ensure
those COs review payments to ensure they are correct.

We will work with the Postal Service through the resolution process regarding
recommendation 3. There is no substitute for the control of receiving an invoice for
services rendered and verifying that services were provided as agreed before payment
is made. Having an exception process is not a substitute for assuring receipt of services
before payment. The Postal Service requires certification of air transportation invoices
before making payments to them and uses data collected in various Postal Service
systems to facilitate certification. We believe the Postal Service could take a similar
approach using the significant amount of data it collects on its HCR contractors to
facilitate the invoice review process. For example, beginning November 1, 2010, the
Postal Service will require its HCR contractors to provide them with global positioning
satellite data for all long-haul routes every 30 minutes. Management could use that data
to verify that it has received HCR services. Management appeared to believe that our
recommendation was to require a separate invoice for every HCR trip. That was not the
intent. Invoices should be received for the monthly services provided by the HCR
carriers and should contain sufficient detail to confirm compliance with the terms of the
contract. Trip-by-trip detail would most likely not be necessary to meet this criteria.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Management stated in their comments they provided the
OIG with documentation to address recommendation 7; however, additional information
is required to satisfy the intent of the recommendation. Consequently, the OIG requests
written confirmation when corrective action(s) are completed. These recommendations
should not be closed in the Postal Service’s follow-up tracking system until the OIG
provides written confirmation that the recommendation(s) can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Judith Leonhardt, director,
Supply Management, or me at 703-248-2100.

   E-Signed by Office of Inspector General
     VERIFY authenticity with ApproveIt



For
Mark Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments



                                                6
Certification Process for Electronic Payments       CA-AR-10-006




cc: Joseph Corbett
    Paula Garner
    Albert J. Novack
    James Dwight Young
    Ann C. Mueller
    Russell Sykes
    Susan Witt
    Corporate Audit and Response Management




                                                7
Certification Process for Electronic Payments                           CA-AR-10-006



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The CO is ultimately responsible for assuring the Postal Service has received goods
and services and been invoiced in the correct amount before the agency pays an
invoice. Postal Service policy allows the CO to delegate this role to a COR; however,
the CO maintains responsibility for ensuring that this critical review is properly
performed before payment. The Postal Service paid approximately $5.6 billion in
electronic payments from April 1, 2008, to March 31, 2010, for various transportation,
utility, and telecommunications contracts. Specifically, these payments include $4.8
billion in monthly annual rate HCR services managed by the Surface Transportation
CMC, approximately $666 million in utility services, and approximately $158 million in
telecommunication services.

HCR contractors are not required to submit invoices and receive fixed payments every
month based on the terms of the contract. Payment adjustments are made after the fact
on an exception basis only. Two contractors, Energy United and ProfitLine, processed
utility and telecommunication invoices. These companies provide bill payment
administration for a myriad of utility and telecommunication bills for the Postal Service.

HCR Electronic Payments

Five COs are responsible for overseeing approximately 13,300 HCR contracts from
approximately 330 Postal Service facilities nationwide. In October 2009, Postal Service
Headquarters restructured and decreased from eight to five the number of COs
responsible for HCR contracts at the District Network Office. These COs now report to
the manager, Supply Management Surface Transportation CMC.

The COs establish recurring contract payments by putting the annual rate contracts into
the Transportation Contract Support System (TCSS), monitoring annual rate contracts,
and forwarding information related to the contracts to the CMC for any necessary
contract adjustments. The contractor is not required to submit an invoice and receives a
fixed payment every month based on the terms of the contract. Payment adjustments
are made after the fact on an exception basis only. COs deduct lump sum payments
from contractors’ monthly payments when facility administrative officials notify them that
contractual obligations were not met. Otherwise, they would not be aware of a
contractor’s non-performance.

Utility Invoices Electronic Payment

In August 2007, the Postal Service awarded a contract to Energy United to assist with
streamlining and centralizing the bill payment process, gathering and capturing utility
cost and consumption data, developing databases, billing audits and corrections, and
utility data reporting and rate optimization associated with selected Postal Service




                                                8
Certification Process for Electronic Payments                              CA-AR-10-006



facilities. Currently, the contractor pays utility invoices on behalf of the Postal Service for
approximately 2,400 Postal Service facilities.

Energy suppliers forward invoices to the contractor via mail or Electronic Data
Interchange (EDI). Once received, the contractor manually enters data into the UMS
and checks it for accuracy and completeness (for example, the correct account number,
amount due, etc.). Upon completion of the data entry process, the contractor forwards
an email to designated Postal Service officials for review. The contractor then submits
an invoice to the Information Technology/Accounting Service Center (IT/ASC) to receive
funds to pay the energy suppliers.

There are no “read receipts” to ensure the designated official reviews the information
prior to paying the bill and the official is not required to respond to the email notification
unless the invoice charges are incorrect. The time allotted to review utility invoices is 3
to 15 days, depending on the payment due date. The contractor pays the utility invoice
without review results from the designated officials.

Telecommunication Invoice Electronic Payments

The Postal Service conducts business with local voice service providers and mobile
service providers nationwide. Currently, there are 140,000 Local Area Network lines and
approximately 20,000 mobile lines. Prior to June 2006, each facility manager or
postmaster was responsible for monitoring his or her local telephone lines, which
included reviewing, verifying, and certifying invoices before submitting them to the
district office for payment.

Telecommunication invoices for local voice and mobile service are currently processed
by ProfitLine, which receives all Postal Service local voice and mobility invoices.
Invoices are batched weekly and available online for district IT managers and
designated officials at Postal Service Headquarters to review. Officials have 2 days to
review the telecommunication invoices; however, the contractor pays the invoices on
behalf of the Postal Service regardless of whether the invoice was approved or rejected.
The IT/ASC then automatically pays the contractor.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess whether Postal Service officials properly certified electronic
payments to ensure the agency received goods and services prior to invoice payment.
To accomplish our objective, we:

       Obtained the Postal Service’s universe of electronic payments for monthly annual
        rate HCR services; utility services for approximately 2,400 postal facilities; and
        telecommunication services covering April 2008 to March 2010.




                                                9
Certification Process for Electronic Payments                            CA-AR-10-006



       Reconciled HCR payments to the TCSS to identify COs responsible for
        administering HCR contracts in various Postal Service areas of operations. We
        also compared the payments to contract end dates to determine if any payments
        occurred 30 days or more after a contract ended.

       Interviewed Postal Service COs regarding the invoice submission, payment, and
        certification process associated with automated invoices generated prior to
        payment.

       Interviewed designated Postal Service officials regarding their roles and
        responsibilities in reviewing utility and telecommunication invoices.

We obtained electronic payment information from APEX. We did not test the controls of
this system; however, we confirmed the accuracy and reasonableness of the data
summaries with Postal Service officials. In addition, we reconciled monthly annual rate
HCR payments to the TCSS. We found no material differences and determined that the
data were sufficiently reliable for the purposes of this report. In addition, we coordinated
with OIG audit teams performing financial statement and internal control audits due to
the magnitude of payments not appropriately certified by Postal Service officials. We
also consulted with OIG criminal investigators on the significant internal control
discrepancies in the receipt and payment processes.

We conducted our audit from December 2009 through September 2010 in accordance
with generally accepted government auditing standards and included tests of internal
controls that were necessary under the circumstances. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on August 30, 2010.

PRIOR AUDIT COVERAGE

Our report titled The Postal Service’s Certification Process for Non-Mail Freight
Transportation Invoices (Report Number CA-AR-09-002, dated February 18, 2009)
concluded that Postal Service officials could improve their oversight to ensure that
non-mail freight transportation invoices are properly certified and goods and services
are received. Management agreed with our finding that Postal Service COs did not
certify $41,916,714 in invoices paid to Ryder Integrated Logistics Inc. (Ryder) and C. H.
Robinson Company (CHR) from July 1, 2006, through June 30, 2008. As a result, we
classified payments of $41,916,714 as unrecoverable unsupported questioned costs
because significant internal controls were not properly applied to non-mail freight
transportation invoices. Management implemented our recommendation to develop and
implement written procedures for the independent review of invoices to confirm the
receipt of goods and services and to ensure accurate payment.




                                                10
Certification Process for Electronic Payments                                          CA-AR-10-006




                               APPENDIX B: DETAILED ANALYSIS

Certification of HCR Payments

Postal Service officials did not certify approximately $4.8 billion in automated payments
for monthly annual rate highway contract services from April 2008 through March 2010.
The COs responsible for these HCR contracts did not validate that all trips were
performed prior to automatic payments scheduled in the TCSS and that payments were
accurate. HCR contractors are also not required to submit invoices prior to payment,
increasing the risk that the Postal Service may make payments for services not
rendered.

This occurred because HCR contractors were automatically paid with no assurance that
trips were completed and payments were correct. COs stated that there are no Postal
Service policies/procedures requiring certification of HCR recurring payments prior to
payments actually being made and they do not test the validity of payments. The
IT/ASC pays the contractor automatically at the conclusion of each month for which
payment is due based on rates the CO establishes in TCSS. The COs we interviewed
assumed that when they established rates in the TCSS the payments would be correct.
In addition, administrative officials at Postal Service facilities would occasionally notify
them when suppliers were not performing their duties. If COs were notified that a
contractor did not perform a trip, they would submit a Postal Service Form 7440,
Contract Route Service Order, to the IT/ASC for a pay adjustment. However, a negative
exception process is not a certification of performance.

The Postal Service generally issues annual-rate HCR contracts for 4-year terms;
however, rates and route changes frequently occur during the contract term. COs have
to manually change rates in the TCSS. If COs do not make rate changes correctly or
timely, the IT/ASC may pay an erroneous rate and have to later make a pay adjustment.
A supplier’s submission of an invoice to the Postal Service for payment is certification
that services have been performed and are being billed in accordance with the contract
terms. If a supplier does not submit an invoice for services and a CO does not confirm
whether services were rendered before payment, there is no certainty that payments
are correct and services were rendered in accordance with the contract. Thus,
contractors are not held accountable for meeting contract terms and COs are not
verifying that payments are accurate and that services were rendered prior to payment
as required in Supply Principles and Practices3.

Due to the lack of invoices to support payments to HCR suppliers and the CO not
confirming contractor performance prior to payment, we classified $4,756,098,561of
recurring monthly HCR payments from April 2008 through March 2010 as unsupported

3
  Supplying Practices, Process Step 5-11 and 5-12, Measure and Manage Supply, Make Payment Task, state that an
invoice amount must be verified and approved before payment. The CO, in conjunction with Finance, must ensure
that all payments are made once a legitimate invoice has been processed.




                                                      11
Certification Process for Electronic Payments                                       CA-AR-10-006



questioned costs4. We question unsupported questioned costs because they are not
supported by adequate documentation or because employees fail to follow required
procedures. The use of the category “unsupported questioned costs” does not
necessarily indicate actual loss incurred by the Postal Service.

Certification of Utility Invoices

Postal Service officials did not properly certify $666,006,255 in utility invoices paid from
April 2008 through March 2010. A contractor, Energy United, paid utility invoices on
behalf of the Postal Service for nearly 2,400 Postal Service facilities. These invoices
were not properly certified because COs did not institute an appropriate certification
process. Neither the COs or COR certified invoices. Designated officials were not
required to respond to the contractors’ notification of utility invoices unless there were
discrepancies.

In addition, Postal Service officials instructed the contractor to pay the utility invoices
without certification in order to prevent potential interruption of utility services at facilities
and application of late fees. However, based on the contractual agreement with the
contractor, the Postal Service would not incur any late fees on utility payments. The net
payment terms for the invoices is from 7 to 30 days, which allows the Postal Service
sufficient time to receive, review, and certify invoices. Also, payment of the invoices via
EDI automates the bill payment process and facilitates a more precise on-time payment
structure. Because designated officials were not required to certify the utility invoices
paid by the contractor, we classified $666,006,255 in utility invoices as unsupported
unrecoverable questioned costs.

Certification of Telecommunication Invoices

Designated Postal Service officials did not certify $151,671,852 in telecommunication
invoices from April 2008 through March 2010. The contractor, ProfitLine, paid the
invoices on behalf of the Postal Service without certification from a CO or COR. In
addition, neither the CO nor the designated COR certified $6,290,981 in invoices
submitted by the contractor for its management fees for the period of April 2008 through
March 2010. An individual who was not authorized as a COR certified the fees. The CO
did not adhere to policy by allowing an individual to certify invoices without a COR
delegation letter.

Telecommunication invoices were not properly certified because COs did not institute
an appropriate certification process. Neither the COs or COR certified invoices. The
contractor used an automated system to process and analyzes invoices against a
standard template developed for Postal Service invoices, consolidated them, and sent
them via email for officials to review and approve. Officials were instructed to indicate
approval or rejection of an invoice. There was also a field for comments related to the

4
    See Appendix C for calculation of unrecoverable unsupported questioned costs.




                                                          12
Certification Process for Electronic Payments                                        CA-AR-10-006



approval or rejection of each invoice, however, the Postal Service always paid the
invoices in full regardless of whether they were approved or rejected.

The contractor analyzed each invoice prior to payment to identify any rate or charge
anomaly. They automatically identified and flagged exceptions for further review after
payment and filed claims for credits, if appropriate. The contractor recovered
approximately $9 million in overpayments of telecommunication invoices through its
“pay and chase” process from April 2008 through March 2010. The Postal Service could
have potentially avoided some of these overpayments if Postal Service officials had
certified invoices prior to payment. In addition, Postal Service officials would be able to
catch anomalies not covered by the generic contractor’s analysis.

Because the CO and COR did not certify telecommunication invoices and invoices for
management fees prior to payment, we are reporting unsupported unrecoverable
questioned costs of $157,962,8335, consisting of $151,671,852 in telecommunication
invoices and $6,290,981in contractor management fees from April 2008 through March
2010.

Management Oversight of HCR Payments

Surface Transportation CMC management could not identify the COs responsible for
approximately $1.2 billion in HCR payments identified in the Postal Service’s APEX
database. The five COs, that report to the CMC, are assigned to HCR contracts by
postal areas of operation. However, there were $1.2 billion HCR payments in the APEX
database that were classified as belonging to various Postal Service program offices
other than postal areas of operations, as shown in Table 1 below. CMC management
could not answer our inquiries about which COs were responsible for overseeing the
contracts related to these payments.

                                  $1.2 Billion HCR Payments in APEX

                       Area Name                               Amount Paid          Invoices
           VP Transportation                                   $1,162,978,467            20,268
           Intl Transportation                                     12,086,500               225
           VP Expedited Shipping                                    2,169,882               215
           Global Business                                            934,220               237
           Employee Resource Management                               509,285                37
           Supply Management                                          394,819                22
           Engineering                                                 91,508                26
           No Description                                              22,654                 2
                                                                 $1,179,187,335          21,032



5
    See Appendix C for calculation of unrecoverable unsupported questioned costs.




                                                          13
Certification Process for Electronic Payments                                      CA-AR-10-006



In addition, approximately 1,900 HCR payments (valued at $7.6 million) were paid 31
days or more after the HCR contract end date. More than 56 percent, $4,307,739, of
these payments were classified as belonging to other Postal Service program offices in
Table 1 above. Payments fell between 31 and 2,150 days after the contract end date.
However, 92 percent of those payments occurred within 1 year of the contract end date.
These contracts are paid monthly, with the payment occurring at the beginning of the
service month. Payments made more than 30 days after the contract end date are
questionable, as there would be no basis for the payment under normal circumstances.

Management provided a description of the payments after our exit conference on
August 30, 2010. However, additional information is necessary to support the payments,
particularly since the payment occurred after the contract end date. Payments disbursed
after the closure of a contract are unauthorized unless another contractual agreement is
in effect. We notified our OIG criminal investigators of these payments that occurred
after the contract end date. We are reporting $7,586,0856 as recoverable questioned
costs due to improper HCR payments made to contractors more than 30 days after
contract end dates.

Management Oversight of Utility Invoices

Designated officials were unaware of their roles and responsibilities for receiving and
reviewing utility invoices from the contractor. This occurred because no one properly
informed them of their responsibilities or trained them to perform them. In addition,
contact information in the UMS was inaccurate. Postal Service officials did not ensure
information in the system was updated consistently and timely. Because the designated
officials were not properly trained and the CO or COR did not ensure that the contractor
had accurate contact information, the CO or COR could not ensure that utility invoices
forwarded were received and reviewed for accuracy prior to payment.

During April 2009 through January 2010, Postal Service officials erroneously paid utility
invoices by at least $233,000 dollars, including a $43,000 payment applied to the wrong
Postal Service utility account. Postal Service facilities were unaware the contractor paid
their invoices and made payments directly to utility companies. During the same time
period, there was an additional $148,000 in refunds to the Postal Service that the CO
could not explain. The CO did not adequately analyze and reconcile the refunds
received to determine their root cause or whether additional overpayments may have
occurred. The contractor received the refunds from the utilities for the Postal Service
and forwarded the refunds to the appropriate Postal Service program office. The CO
maintained a log of refunds that did not include all refunds received by the program
office. We consulted with OIG criminal investigators on this internal control discrepancy.
The institution of a reconciliation process could help the Postal Service identify facilities
receiving refunds due to rate changes, deposits, and overpayments and trends in
refunds that may be relevant to multiple facilities.

6
    See Appendix C for calculation of unrecoverable unsupported questioned costs




                                                         14
Certification Process for Electronic Payments                              CA-AR-10-006



                              APPENDIX C: MONETARY IMPACT

                       Unrecoverable Unsupported Questioned Costs

We classified these costs as unrecoverable unsupported questioned costs due to the
significant internal controls not properly applied to certification of electronic payments
for HCR services and utility and telecommunication invoices. These amounts are not
necessarily actual losses incurred by the Postal Service.

              Total Payments for HCR, Utility and Telecommunication Services
                 April 2008 through March 2010 (Q3, FY 2008 – Q2, FY 2010)
              Service                                                   Payments
              HCR                                                  $4,756,098,561
              Utility Services                                        666,006,255
              Telecommunication Services                              157,962,833
              Total                                                $5,580,067,649

                           Telecommunication Invoices and Contractor
                                  Management Fee Payments
                                 April 2008 through March 2010
                   Service/Fee                                    Payments
                   Telecommunication Invoices                  $151,671,852
                   Contractor Management Fees                     6,290,981
                   Total                                       $157,962,833

                                 Recoverable Questioned Costs

We questioned these costs because Postal Service officials paid HCR contractors 31 or
more days after contract end dates without providing an explanation of payments.

                                         HCR Overpayments
                                   April 2008 through March 2010
               Service                                                 Payments
               HCR                                                    $7,586,085




                                                15
Certification Process for Electronic Payments               CA-AR-10-006



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                                16
Certification Process for Electronic Payments        CA-AR-10-006




                                                17
Certification Process for Electronic Payments        CA-AR-10-006




                                                18
Certification Process for Electronic Payments        CA-AR-10-006




                                                19
